                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General


                                                             September 18, 2014


In August 2014, the Inspector General sent a letter requesting information to the thirty
companies which have the highest dollar amount of contracts with the Department of State. This
request was sent after several media reports were written about the use of confidentiality
agreements that limit the ability of contractor employees to report fraud, waste, or abuse to
Inspectors General or other oversight entities. The Inspector General requested a response by
September 5 and is currently reviewing the responses. After this review is complete, an analysis
of the information provided will be published.


The letter was sent to the following companies:

ACADEMI                                                         Desbuild Inc.
Aecom Technology Corporation                                    DynCorp International Inc.
Aegis Group Holding                                             Enviro-Management & Research
American International Contractors (Special Projects)           Furniture Brands International
Akal Security                                                   General Dynamics
Alutiiq, LLC                                                    Inter-Con Security Systems, Inc.
BL Harbert International                                        Olgoonik Corporation
Caddell Construction Co., Inc.                                  PAE Holdings
Contracting, Consulting, Engineering LLC                        Pernix-Serka
CDW Holdings LLC                                                Safran USA, Inc.
CGI Technologies and Solutions Inc.                             SAIC
Creative Information Technology, Inc.                           Serco Inc.
Computer Services Corporation                                   STG, Inc.
Day & Zimmerman                                                 Triple Canopy
DECO, Inc.                                                      Xator Corporation


An example of one of the letters is attached.




Address correspondence to: U.S. Department of State, Office of Inspector General, Washington, D.C. 20522-0308
